      DEPARTMENT OF HEALTH & HUMAN SERVICES                             Office of Inspector General

                                                                       Washington, D.C. 20201




January 13, 2011

TO:           Donald M. Berwick, M.D.
              Administrator
              Centers for Medicare & Medicaid Services


FROM:         /Daniel R. Levinson/
              Inspector General


SUBJECT:      Review of Medicare Claims for Home Blood-Glucose Test Strips and Lancets—
              Durable Medical Equipment Medicare Administrative Contractor for
              Jurisdiction C (A-09-08-00045)


Attached, for your information, is an advance copy of our final report on Medicare claims for
home blood-glucose test strips and lancets for the durable medical equipment Medicare
administrative contractor for Jurisdiction C. We will issue this report to CIGNA Government
Services, LLC, within 5 business days.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Robert A. Vito, Acting Assistant Inspector General for the Centers for
Medicare & Medicaid Audits, at (410) 786-7104 or through email at Robert.Vito@oig.hhs.gov
or Lori A. Ahlstrand, Regional Inspector for Audit Services, Region IX, at (415) 437-8360 or
through email at Lori.Ahlstrand@oig.hhs.gov. Please refer to report number A-09-08-00045.


Attachment
     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services, Region IX
                                                                          90 – 7th Street, Suite 3-650
                                                                          San Francisco, CA 94103




January 21, 2011

Report Number: A-09-08-00045

Ms. Jean Rush
President
CIGNA Government Services, LLC
Two Vantage Way
Nashville, TN 37228

Dear Ms. Rush:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Medicare Claims for Home Blood-Glucose Test
Strips and Lancets—Durable Medical Equipment Medicare Administrative Contractor for
Jurisdiction C. We will forward a copy of this report to the HHS action official noted on the
following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Jessica Kim, Audit Manager, at (323) 261-7218, extension 702, or through email at
Yun.Kim@oig.hhs.gov. Please refer to report number A-09-08-00045 in all correspondence.

                                             Sincerely,



                                             /Lori A. Ahlstrand/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Ms. Jean Rush


cc:
Ms. Jennifer Ullig
Compliance Manager
CIGNA Government Services, LLC

Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, MO 64106
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL



REVIEW OF MEDICARE CLAIMS FOR
    HOME BLOOD-GLUCOSE
   TEST STRIPS AND LANCETS

 DURABLE MEDICAL EQUIPMENT
  MEDICARE ADMINISTRATIVE
      CONTRACTOR FOR
       JURISDICTION C



                      Daniel R. Levinson
                       Inspector General

                        January 2011
                        A-09-08-00045
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Pursuant to sections 1832(a)(1), 1861(s)(6), and 1861(n) of the Social Security Act, Medicare
Part B covers home blood-glucose test strip and lancet supplies (test strips and lancets) that
physicians prescribe for diabetics. The Centers for Medicare & Medicaid Services (CMS)
contracts with four durable medical equipment Medicare administrative contractors (DME
MAC) to process and pay Medicare Part B claims for test strips and/or lancets. These DME
MACs replaced the Durable Medical Equipment Regional Carriers (DMERC). The amount
allowed for payment is equal to the lesser of the Medicare fee schedule amount or the amount
charged by a DME supplier. Medicare pays the beneficiary or the supplier the amount allowed
for payment, less the beneficiary share (i.e., deductibles and coinsurance).

The quantity of test strips and lancets that Medicare covers depends on the beneficiary’s usual
medical needs. Medicare utilization guidelines allow up to 100 test strips and 100 lancets every
month for insulin-treated diabetics and every 3 months for non-insulin-treated diabetics. To be
reimbursed for a claim for any quantity of test strips and/or lancets, the DME supplier is required
to maintain (1) a physician order containing the items to be dispensed, the specific frequency of
testing, and the physician’s signature with the date and (2) proof of delivery. The supplier may
refill an order only when the beneficiary has nearly exhausted the previous supply and
specifically requests the supplies to be dispensed.

Additional requirements apply for reimbursement of a claim for a quantity of test strips and/or
lancets that exceeds the utilization guidelines (high utilization claim). Specifically, there must be
documentation in the beneficiary’s medical records supporting the specific reason for the
additional supplies and documentation in the physician’s or supplier’s records supporting the
actual frequency of testing. Further, the physician must have seen the patient and evaluated the
patient’s diabetic control within 6 months before ordering the quantity of supplies in excess of
the guidelines.

CMS awarded the DME MAC contract for Jurisdiction C to CIGNA Government Services, LLC
(CGS). CGS assumed full responsibility for administering the DME MAC work and began
processing claims of durable medical equipment, prosthetics, orthotics, and supplies (DMEPOS)
for Jurisdiction C as of June 1, 2007. Palmetto Government Benefits Administrators, LLC
(Palmetto GBA), was the Region C DMERC and processed the DMEPOS claims through
May 31, 2007. During calendar year (CY) 2007, the program safeguard contractor for
Jurisdiction C was responsible for the medical review function, which was transferred to CGS
effective March 1, 2008.

CGS and Palmetto GBA allowed for payment $499 million in Medicare Part B claims for test
strips and/or lancets for CY 2007. We focused our review on high utilization claims. To
identify these claims, we analyzed the information submitted by DME suppliers on the claim
forms. We did not verify the accuracy of the claim information. We estimated that CGS and
Palmetto GBA allowed for payment $221 million for the claims that we identified as high




                                                  i
utilization claims. We reviewed a sample of 100 high utilization claims allowed for payment by
CGS and Palmetto GBA.

OBJECTIVE

Our objective was to determine whether high utilization claims for test strips and/or lancets that
CGS and Palmetto GBA allowed for payment were supported in accordance with Medicare
documentation requirements.

SUMMARY OF FINDINGS

Of the 100 sampled claims for test strips and/or lancets, 21 claims were supported in accordance
with Medicare documentation requirements. However, the remaining 79 claims were not
supported because each claim had one or more deficiencies:

   •   The quantity of supplies that exceeded utilization guidelines was not supported with
       documentation indicating the actual frequency of testing, the specific reason for the
       additional supplies, or the treating physician’s evaluation of the patient’s diabetic control
       within 6 months before ordering the supplies (45 claims).

   •   There was no documentation supporting that refill requirements had been met
       (42 claims).

   •   Physician orders were missing or incomplete (22 claims).

   •   Proof-of-delivery records were missing (12 claims).

For CY 2007, based on our sample results, we estimated that CGS and Palmetto GBA
inappropriately allowed for payment approximately $125 million in claims for test strips and/or
lancets that we identified as high utilization claims. Of this amount, we estimated that CGS and
Palmetto GBA inappropriately paid approximately $96.6 million to DME suppliers.

CGS and Palmetto GBA made improper payments to DME suppliers because CGS and Palmetto
GBA did not have controls to ensure that claims for test strips and/or lancets complied with
certain Medicare documentation requirements. Specifically, they did not have system edits to
identify, and review when necessary, high utilization claims. In addition, they did not have
system edits to identify claims with overlapping service dates for the same beneficiary. This
billing pattern caused CGS and Palmetto GBA to allow payment for claims when beneficiaries
had not nearly exhausted previously dispensed test strips and/or lancets.

CGS and Palmetto GBA could have saved Medicare an estimated $96.6 million for CY 2007 if
they had had controls to ensure that claims for test strips and/or lancets complied with certain
Medicare documentation requirements.




                                                 ii
RECOMMENDATIONS

To help achieve potential savings for the Medicare program in future years, we recommend that
CGS, as the current DME MAC:

   •   implement system edits to identify high utilization claims for test strips and/or lancets
       and work with CMS to develop cost-effective ways of determining which claims should
       be further reviewed for compliance with Medicare documentation requirements;

   •   implement system edits to identify claims for test strips and/or lancets that have
       overlapping service dates for the same beneficiary; and

   •   enforce Medicare documentation requirements for claims for test strips and/or lancets by
       (1) identifying DME suppliers with a high volume of high utilization claims,
       (2) performing prepayment reviews of those suppliers, and (3) referring them to the
       Office of Inspector General or CMS for further review or investigation when necessary.

AUDITEE COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In its written comments on our draft report, CGS concurred with our recommendations and
provided information on actions that it had taken or planned to take to address the
recommendations. However, CGS requested that we revise the report to indicate that the PSC
for Jurisdiction C was responsible for the medical review function during CY 2007. We revised
the report as CGS requested. CGS’s comments are included in their entirety as Appendix E.




                                                iii
                                                  TABLE OF CONTENTS

                                                                                                                                      Page

INTRODUCTION......................................................................................................................1

          BACKGROUND .............................................................................................................1
              Medicare Program ................................................................................................1
              Durable Medical Equipment ................................................................................1
              National and Local Coverage Determinations .....................................................2
              Home Blood-Glucose Test Strip and Lancet Supplies ........................................2
              Durable Medical Equipment Medicare Administrative Contractor
               for Jurisdiction C...............................................................................................3

          OBJECTIVE, SCOPE, AND METHODOLOGY ...........................................................3
               Objective ..............................................................................................................3
               Scope ....................................................................................................................4
               Methodology ........................................................................................................4

FINDINGS AND RECOMMENDATIONS ............................................................................5

          UNSUPPORTED CLAIMS FOR TEST STRIPS AND/OR LANCETS ........................6
               Lack of Documentation for Quantities in Excess of Utilization Guidelines .......6
               Lack of Documentation To Support Refills of Supplies ......................................7
               Missing or Incomplete Physician Orders ............................................................8
               Missing Proof-of-Delivery Records .....................................................................9

          EFFECT OF UNALLOWABLE CLAIMS ...................................................................10

          LACK OF CONTROLS ................................................................................................10

          RECOMMENDATIONS ...............................................................................................10

          AUDITEE COMMENTS AND
           OFFICE OF INSPECTOR GENERAL RESPONSE .................................................11

OTHER MATTERS ................................................................................................................11

          INCORRECT MODIFIER.............................................................................................11

          INCORRECT UNIQUE IDENTIFICATION NUMBER .............................................11

APPENDIXES

          A: FRAME SAMPLE DESIGN AND METHODOLOGY

          B: FRAME SAMPLE RESULTS AND ESTIMATES


                                                                    iv
C: ERROR SAMPLE DESIGN AND METHODOLOGY

D: ERROR SAMPLE RESULTS AND ESTIMATES

E: AUDITEE COMMENTS




                           v
                                              INTRODUCTION

BACKGROUND

Medicare Program

The Medicare program, established by Title XVIII of the Social Security Act (the Act) in 1965,
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program.

Durable Medical Equipment

Pursuant to sections 1832(a)(1), 1861(s)(6), and 1861(n) of the Act, Medicare Part B covers
durable medical equipment, prosthetics, orthotics, and supplies (DMEPOS). DMEPOS includes
items such as wheelchairs, hospital beds, oxygen tents, and medical supplies. Section
1862(a)(1)(A) of the Act requires that, to be paid by Medicare, a service or an item be reasonable
and necessary for the diagnosis or treatment of illness or injury or to improve the functioning of
a malformed body member.

As a result of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003,
CMS contracted with four durable medical equipment Medicare administrative contractors
(DME MAC) to process and pay Medicare Part B claims for DMEPOS. These DME MACs
replaced the Durable Medical Equipment Regional Carriers (DMERC). CMS’s DME MAC
Workload Implementation Handbook, dated March 1, 2007, required the DMERCs to transfer
their workloads, including Medicare data, records, and operational activities, to the DME MACs.
Further, this handbook required the DME MACs to attempt to retain, to the extent practicable,
the DMERCs’ existing edits 1 in the claims processing system (system edits).

Pursuant to the Statement of Work, the DME MACs’ responsibilities included, but were not
limited to, (1) receiving Medicare Part B claims from DME suppliers and beneficiaries within
their jurisdictions, (2) performing edits on these claims to determine whether they were complete
and reimbursable, (3) calculating Medicare payment amounts and remitting payments to the
appropriate parties, and (4) educating DME suppliers on Medicare requirements and billing
procedures. 2

The Statement of Work was modified to require the DME MACs to perform medical reviews as
of March 1, 2008. Medical reviews include the collection of information and review of medical
records to ensure that Medicare pays only for services that meet all Medicare coverage, coding,
and medical necessity requirements. The amount allowed for payment is equal to the lesser of
the Medicare fee schedule amount or the amount charged by a DME supplier. Medicare pays the
1
 An edit is programming within the standard claims processing system that selects certain claims; evaluates or
compares information on the selected claims or other accessible sources; and, depending on the evaluation, takes
action on the claims, such as paying them in full, paying them in part, or suspending them for manual review.
2
  Pursuant to the Statement of Work for DMERCs, their responsibilities were similar to the DME MACs’
responsibilities.


                                                         1
beneficiary or the supplier the amount allowed for payment, less the beneficiary share (i.e.,
deductibles and coinsurance).

National and Local Coverage Determinations

National Coverage Determinations (NCD) describe the circumstances for Medicare coverage
nationwide for specific medical service procedures or devices, including DMEPOS, and
generally outline the conditions under which a service or device is considered covered.
Medicare contractors, such as carriers, MACs, or program safeguard contractors (PSC), are
required to follow NCDs.

A Local Coverage Determination (LCD) is a decision by a Medicare contractor whether to cover
a particular item or service on a contractorwide basis in accordance with section 1862(a)(1)(A)
of the Act. Medicare contractors may establish or adopt LCDs when there is no NCD or when
they need to further define an NCD. LCDs must be consistent with all statutes; rulings;
regulations; and national coverage, payment, and coding policies.

Home Blood-Glucose Test Strip and Lancet Supplies

Pursuant to sections 1832(a)(1), 1861(s)(6), and 1861(n) of the Act, Medicare Part B covers
home blood-glucose test strip and lancet supplies (test strips and lancets) that physicians
prescribe for diabetics, whether they are insulin-treated or non-insulin-treated. The patient, using
a disposable sterile lancet, draws a drop of blood, places it on a test strip, and inserts the strip
into a home blood-glucose monitor to obtain a reading of the blood-sugar level. DME suppliers
provide test strips and lancets to beneficiaries.

The NCD for home blood-glucose monitors specifies coverage of test strips and lancets for
patients who meet certain conditions and use home blood-glucose monitors to better control their
glucose levels by frequently checking those levels and appropriately contacting their attending
physicians for advice and treatment. 3 However, the NCD does not specify utilization guidelines
and documentation requirements for test strips and lancets.

To establish utilization guidelines and documentation requirements for test strips and lancets,
DME Medicare contractors either established or adopted LCDs, which state that the quantity of
test strips and lancets that Medicare covers depends on the beneficiary’s usual medical needs.
The LCD for each DME Medicare contractor further states that Medicare covers up to 100 test
strips and 100 lancets every month for insulin-treated diabetics and every 3 months for
non-insulin-treated diabetics. 4

To be reimbursed for a claim for any quantity of test strips and/or lancets, the DME supplier is
required to maintain (1) a physician order containing the items to be dispensed, the specific
frequency of testing, and the physician’s signature with the date and (2) proof of delivery. The

3
 Medicare National Coverage Determinations Manual, Pub. No. 100-03, chapter 1, section 40.2, effective
June 19, 2006.
4
    Medicare considers 50 test strips as 1 unit and 100 lancets as 1 unit.


                                                              2
supplier may refill an order only when the beneficiary has nearly exhausted the previous supply
and specifically requests the supplies to be dispensed.

Additional requirements apply for reimbursement of a claim for a quantity of test strips and/or
lancets that exceeds the utilization guidelines (high utilization claim). Specifically, there must be
documentation in the beneficiary’s medical records supporting the specific reason for the
additional supplies and documentation in the physician’s or supplier’s records supporting the
actual frequency of testing. Further, the physician must have seen the patient and evaluated the
patient’s diabetic control within 6 months before ordering the quantity of supplies in excess of
the guidelines.

Durable Medical Equipment Medicare Administrative Contractor for Jurisdiction C

CMS awarded the DME MAC contract for Jurisdiction C to CIGNA Government Services, LLC
(CGS), a wholly owned subsidiary of Connecticut General Life Insurance Company, which is a
parent corporation for a family of companies known as CIGNA HealthCare. CGS assumed full
responsibility for administering the DME MAC work and began processing DMEPOS claims for
Jurisdiction C as of June 1, 2007. CGS processes DMEPOS claims for Alabama, Arkansas,
Colorado, Florida, Georgia, Louisiana, Mississippi, New Mexico, North Carolina, Oklahoma,
Puerto Rico, South Carolina, Tennessee, Texas, U.S. Virgin Islands, Virginia, and West Virginia.

Palmetto Government Benefits Administrators, LLC (Palmetto GBA), was the Region C
DMERC and processed DMEPOS claims through May 31, 2007. 5 Palmetto GBA transferred its
DMEPOS files to CGS after CMS awarded CGS the DME MAC contract for Jurisdiction C.
During calendar year (CY) 2007, the PSC for Jurisdiction C was responsible for the medical
review function, which was transferred to CGS effective March 1, 2008.

CGS and Palmetto GBA allowed for payment $499 million in Medicare Part B claims for test
strips and/or lancets for CY 2007.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether high utilization claims for test strips and/or lancets that
CGS and Palmetto GBA allowed for payment were supported in accordance with Medicare
documentation requirements.




5
 CMS refers to the DMERCs’ coverage areas as “regions” and the DME MACs’ coverage areas as “jurisdictions.”
The Region C DMERC’s coverage area also included Kentucky but did not include Virginia or West Virginia.



                                                     3
Scope

We focused our review on high utilization claims for test strips and/or lancets for CY 2007. To
identify these claims, we analyzed the information submitted by DME suppliers on the Medicare
claim forms. We did not verify the accuracy of the claim information. 6 We estimated that CGS
and Palmetto GBA allowed for payment $221 million for the claims that we identified as high
utilization claims. (See Appendixes A and B.)

We did not review the overall internal control structure of CGS. Rather, we limited our review
of internal controls to those that were significant to the objective of our audit. At the time of our
review, Palmetto GBA was no longer operating as a DMERC for Region C. Therefore, we
limited our review of Palmetto GBA’s internal controls to gaining an understanding of Palmetto
GBA’s system edits in 2007 for test strip and/or lancet claims.

We performed our review from July 2008 to June 2010 and conducted fieldwork at CGS’s office
in Nashville, Tennessee.

Methodology

To accomplish our objective, we:

    •    reviewed applicable Federal laws, regulations, and guidance;

    •    reviewed the LCD adopted by CGS and Palmetto GBA;

    •    reviewed the Statements of Work for CGS and Palmetto GBA prepared by CMS
         for the administration of DMEPOS;

    •    reviewed CGS’s policies and procedures for processing Medicare claims for test
         strips and/or lancets;

    •    interviewed CGS officials and former Palmetto GBA officials 7 to obtain an
         understanding of CGS’s and Palmetto GBA’s Medicare claim processing
         procedures for test strips and/or lancets;

    •    obtained from the CMS National Claims History (NCH) files CGS’s and Palmetto
         GBA’s Medicare Part B claims for test strips and/or lancets with service dates
         ending in CY 2007 and removed any service line in which the amount allowed for


6
 During our audit, we determined that some claims we had identified as high utilization claims were in fact within
the Medicare utilization guidelines based on our review of the beneficiaries’ medical records and additional analysis
of the claim information.

7
 We were unable to substantiate information that the former Palmetto GBA officials provided during the interview
because documentation of Palmetto GBA’s claim processing procedures for test strip and/or lancet claims for 2007
was not available.


                                                          4
           payment was less than the lowest nationwide Medicare Part B fee schedule
           amount in CY 2007 ($32.74 for test strips and $10.83 for lancets);

      •    created a sampling frame from the NCH data and randomly selected a sample of
           500 Medicare beneficiaries to estimate the number of high utilization claims that
           CGS and Palmetto GBA allowed for payment (Appendixes A and B);

      •    randomly selected a sample of 100 high utilization claims 8 to estimate the
           amounts that CGS and Palmetto GBA allowed for payment and paid to suppliers
           for claims that were not supported in accordance with Medicare documentation
           requirements (Appendixes C and D); 9

      •    obtained medical records and other documentation from suppliers and physicians
           for the 100 sampled claims;

      •    reviewed medical records and other documentation to determine whether each of the 100
           sampled claims was supported in accordance with Medicare documentation requirements;
           and

      •    shared the results of our review with CGS.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                               FINDINGS AND RECOMMENDATIONS

Of the 100 sampled claims for test strips and/or lancets, 21 claims were supported in accordance
with Medicare documentation requirements. However, the remaining 79 claims were not
supported because each claim had one or more deficiencies. For CY 2007, based on our sample
results, we estimated that CGS and Palmetto GBA inappropriately allowed for payment
approximately $125 million in claims for test strips and/or lancets that we identified as high
utilization claims. Of this amount, we estimated that CGS and Palmetto GBA inappropriately
paid approximately $96.6 million to DME suppliers.

Table 1 summarizes the deficiencies noted and the number of claims that contained each type of
deficiency.




8
 Of the 100 claims, 31 claims were within the Medicare utilization guidelines based on our review of the
beneficiaries’ medical records and additional analysis of the claim information.
9
    Palmetto GBA and CGS processed and allowed for payment 44 and 56 sampled claims, respectively.


                                                         5
                          Table 1: Summary of Deficiencies in Sampled Claims

                                                                                          No. of Claims With
                         Type of Deficiency                                                 Deficiencies 10
 Lack of Documentation for Quantities in Excess of Utilization                                    45
 Guidelines
 Lack of Documentation To Support Refills of Supplies                                            42
 Missing or Incomplete Physician Orders                                                          22
 Missing Proof-of-Delivery Records                                                               12

CGS and Palmetto GBA made improper payments to DME suppliers because CGS and Palmetto
GBA did not have controls to ensure that claims for test strips and/or lancets complied with
certain Medicare documentation requirements. Specifically, they did not have system edits to
identify, and review when necessary, high utilization claims. In addition, they did not have
system edits to identify claims with overlapping service dates for the same beneficiary. This
billing pattern caused CGS and Palmetto GBA to allow payment for claims when beneficiaries
had not nearly exhausted previously dispensed test strips and/or lancets.

UNSUPPORTED CLAIMS FOR TEST STRIPS AND/OR LANCETS

Lack of Documentation for Quantities in Excess of Utilization Guidelines

For a quantity of test strips and lancets in excess of the utilization guidelines, LCD L11520
requires that the treating physician document in the medical records the specific reason for the
additional supplies.

LCD L11520 also requires that when a DME supplier refills a physician order for a quantity of
test strips and lancets in excess of the utilization guidelines, “[T]here must be documentation in
the physician’s records (e.g., a specific narrative statement that adequately documents the
frequency at which the patient is actually testing or a copy of the beneficiary’s log) or in the
supplier’s records (e.g., a copy of the beneficiary’s log) that the patient is actually testing at a
frequency that corroborates the quantity of supplies that have been dispensed.”

Finally, LCD L11520 states that the treating physician must have evaluated the patient’s diabetic
control within 6 months before ordering the quantity of test strips and lancets in excess of the
guidelines.

For 45 of the 100 sampled claims, the beneficiary’s medical records did not have the required
documentation to support a quantity of supplies in excess of the guidelines.




10
     The total exceeds 79 because 45 of the 79 claims contained more than 1 deficiency.


                                                           6
No Documentation of Actual Testing Frequency To Support Refills

For 35 of the 45 claims, neither the physician’s nor the supplier’s records contained
documentation supporting that the beneficiary was actually testing at a “frequency that
corroborates the quantity of supplies that have been dispensed.” For example, for one claim, a
supplier dispensed a refill consisting of six units of test strips and three units of lancets for a non-
insulin-treated patient, which would be the quantity for a testing frequency of about three times a
day. This frequency corresponded to the physician order, which was signed by the physician.
However, neither the physician nor the supplier maintained records documenting that the patient
was actually testing three times a day, such as a specific narrative statement from the physician
or a copy of the beneficiary’s log.

No Documentation of Specific Reason for Additional Supplies

For 30 of the 45 claims, the beneficiary’s medical records did not indicate a specific reason for
the additional supplies. For example, for one claim, a DME supplier provided a copy of a
physician order indicating a testing frequency of six times a day for an insulin-treated patient.
The utilization guidelines for an insulin-treated patient specify a quantity of supplies indicating a
testing frequency of three times a day. However, the patient’s medical records did not indicate a
specific reason for the additional supplies.

No Documentation of Treating Physician’s Evaluation of Patient’s Diabetic Control

For 4 of the 45 claims, the beneficiary’s medical records did not indicate that the physician
evaluated the patient’s diabetic control within 6 months before ordering the quantity of supplies
in excess of the utilization guidelines. For example, a DME supplier submitted a claim for test
strips provided to a non-insulin-treated patient based on a physician order signed December 20,
2006. The physician order indicated a testing frequency of two times a day, which was in excess
of the guidelines. When we contacted the physician, he provided medical records showing that
he saw the patient on March 28, 2006, which was almost 9 months before the date of the
physician order. The physician did not see the patient again until March 12, 2007, which was
after the date of the physician order.

Lack of Documentation To Support Refills of Supplies

The Medicare Program Integrity Manual (the Manual), Pub. No. 100-08, chapter 4, section
4.26.1, states that, when a DME supplier refills an original order, the supplier must contact the
beneficiary before dispensing the refill. Further, the Manual states: “For subsequent deliveries
of refills, the supplier should deliver the DMEPOS product no sooner than approximately 5 days
prior to the end of usage for the current product.”

LCD L11520 states that the DME supplier may not dispense test strips and lancets until the
beneficiary has nearly exhausted the previously dispensed supplies. A beneficiary or the
beneficiary’s caregiver must specifically request the refill of test strips and lancets before the
supplier dispenses supplies to the beneficiary. In addition, the LCD states: “The supplier must




                                                   7
not automatically dispense a quantity of supplies on a predetermined regular basis, even if the
beneficiary has ‘authorized’ this in advance.”

For 42 of the 100 sampled claims, suppliers did not have documentation that refill requirements
had been met.

Previously Dispensed Supplies Not Nearly Exhausted

For 33 of the 42 claims, DME suppliers dispensed test strips and/or lancets when the
beneficiaries had not nearly exhausted the previously dispensed supplies. Of the 33 claims,
25 claims had multiple suppliers that had dispensed test strips and/or lancets for the same
beneficiary with overlapping service dates. In one instance, five suppliers had billed Medicare
for claims with overlapping services dates for the same beneficiary. The beneficiary’s physician
had ordered a testing frequency of four times a day, which required eight units of test strips and
four units of lancets for a 3-month period. As illustrated in Table 2, the supplier for the selected
sample claim dispensed six units of test strips and three units of lancets and submitted a claim to
CGS for service dates covering the period July 12 through September 19, 2007 (approximately a
2-month period). In addition, four other suppliers submitted claims to CGS or Palmetto GBA for
the same beneficiary covering service periods from April 30 through October 29, 2007. CGS
and Palmetto GBA allowed payment for all of these claims.

          Table 2: Multiple DME Suppliers’ Billing of a Beneficiary’s Test Strips

                                                                    Units of Test       Units of
      DME Supplier                      Service Dates                  Strips           Lancets
1                                04/30/2007      07/29/2007               8                4
2                                06/24/2007      09/23/2007               6                3
3                                06/27/2007      09/26/2007               4                2
4 (Sample Claim)                 07/12/2007      09/19/2007               6                3
5                                07/19/2007      10/16/2007               2                1
1                                07/30/2007      10/29/2007               8                4

Refills Not Specifically Requested

For 16 of the 42 claims, the beneficiary or the beneficiary’s caregiver had not specifically
requested the refill before the supplies were dispensed. For example, for one claim, when we
requested documentation supporting the specific refill request, a DME supplier provided a
preprinted form with the statement “Unless otherwise arranged, I request automatic delivery of
my diabetic supplies and will notify you when I have too many supplies on hand.” The
beneficiary’s caregiver signed this form on March 17, 2006, which was more than a year before
five units of test strips and three units of lancets were dispensed on September 14, 2007.

Missing or Incomplete Physician Orders

Section 1833(e) of the Act requires that providers furnish DME MACs with necessary
information to receive payment for services provided to Medicare beneficiaries.


                                                 8
The Manual, chapter 5, section 5.2.1, requires that the DME supplier obtain an order from the
treating physician before dispensing supplies to a beneficiary. The Manual, chapter 5, sections
5.2.2 and 5.2.3, provide that, when a DME supplier dispenses items based on a verbal order, the
supplier must have a written order in its records before submitting a claim to the DME MAC.

LCD L11520 states: “An order for each item billed must be signed and dated by the treating
physician, kept on file by the supplier, and made available upon request.” Further, the LCD
requires that the order for test strips and lancets include the specific frequency of testing and the
items to be dispensed.

For 22 of the 100 sampled claims, suppliers submitted claims when physician orders were
missing or incomplete.

Missing Physician Orders

For 17 of the 22 claims, the DME suppliers did not have written physician orders. For 14 of
these claims, the suppliers did not provide copies of the written orders. For example, a supplier
provided a physician order that appeared to be signed by a physician on February 9, 2007. When
we contacted the physician, he told us that he had not signed the order. For the three remaining
claims, the suppliers had documentation of verbal orders from the physicians but did not have
written orders. The physician records did not contain copies of written orders or references to
them.

Incomplete Physician Orders

For 5 of the 22 claims, the DME suppliers had physician orders without required elements,
including the specific frequency of testing and the items to be dispensed:

   •   For three claims, copies of the physician orders did not indicate the specific frequency of
       testing. Instead, they indicated either “as directed” or the quantity of supplies (e.g., “100
       test strips”).

   •   For two claims, copies of the physician orders did not indicate the items to be dispensed.

Missing Proof-of-Delivery Records

Pursuant to 42 CFR § 424.57(c)(12), DME suppliers are required to maintain proof of delivery of
DME supplies provided to Medicare beneficiaries. The Manual, chapter 4, section 4.26, requires
that DME suppliers maintain proof-of-delivery documentation in their files for 7 years.

For 12 of the 100 sampled claims, suppliers did not maintain proof of delivery. When we
requested delivery records, the suppliers did not provide proof of delivery. For example, a
supplier submitted a claim for six units of test strips and three units of lancets for the service date




                                                  9
beginning December 23, 2006. When we requested proof of delivery, the supplier provided a
patient contact log with a note that the beneficiary refused to accept the supplies. 11

EFFECT OF UNALLOWABLE CLAIMS

For 79 of the items in our sample, DME suppliers’ high utilization claims for test strips and/or
lancets were not supported in accordance with Medicare documentation requirements. As a
result, CGS and Palmetto GBA allowed $8,483 in Medicare Part B payments for unallowable
claims. Of this amount, CGS and Palmetto GBA inappropriately paid $6,557 to suppliers.

For CY 2007, based on our sample results, we estimated that CGS and Palmetto GBA
inappropriately allowed for payment $125,018,182 in claims for test strips and/or lancets that we
identified as high utilization claims. Of this amount, we estimated that CGS and Palmetto GBA
inappropriately paid $96,633,764 to suppliers.

LACK OF CONTROLS

CGS and Palmetto GBA made improper payments to DME suppliers because CGS and Palmetto
GBA did not have controls to ensure that claims for test strips and/or lancets complied with
certain Medicare documentation requirements. Specifically, they did not have system edits to
identify, and review when necessary, high utilization claims. (CGS did have edits for test strips
and/or lancets that rejected claims submitted without the required modifier and an appropriate
diagnosis code.) In addition, CGS and Palmetto GBA did not have system edits to identify
suppliers’ claims with overlapping service dates for the same beneficiary. This billing pattern
caused them to allow payment for claims when beneficiaries had not nearly exhausted previously
dispensed test strips and/or lancets.

CGS and Palmetto GBA could have saved Medicare an estimated $96,633,764 for CY 2007 if
they had had controls to ensure that claims for test strips and/or lancets complied with certain
Medicare documentation requirements.

RECOMMENDATIONS

To help achieve potential savings for the Medicare program in future years, we recommend that
CGS, as the current DME MAC:

     •   implement system edits to identify high utilization claims for test strips and/or lancets
         and work with CMS to develop cost-effective ways of determining which claims should
         be further reviewed for compliance with Medicare documentation requirements;

     •   implement system edits to identify claims for test strips and/or lancets that have
         overlapping service dates for the same beneficiary; and



11
 The DME supplier stated that it had initiated the process of refunding the overpayment for the claim to CGS in
December 2008, which was after we requested documentation from the supplier.


                                                       10
   •   enforce Medicare documentation requirements for claims for test strips and/or lancets by
       (1) identifying DME suppliers with a high volume of high utilization claims,
       (2) performing prepayment reviews of those suppliers, and (3) referring them to the
       Office of Inspector General or CMS for further review or investigation when necessary.

AUDITEE COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In its written comments on our draft report, CGS concurred with our recommendations and
provided information on actions that it had taken or planned to take to address the
recommendations. However, CGS requested that we revise the report to indicate that the PSC
for Jurisdiction C was responsible for the medical review function during CY 2007. We revised
the report as CGS requested.

Regarding the first two recommendations, CGS stated that it had implemented edits since
March 2008 to identify high utilization claims and claims that have overlapping dates of service
for the same beneficiary. Regarding the third recommendation, CGS described multiple ongoing
efforts to enforce Medicare documentation requirements, including examining the LCD to
determine whether additional safeguards can be implemented and conducting prepayment
reviews of suppliers with high utilization claims. CGS’s comments are included in their entirety
as Appendix E.

                                      OTHER MATTERS

We identified issues with DME suppliers’ use of modifiers and unique physician identification
numbers for test strip and/or lancet claims.

INCORRECT MODIFIER

LCD L11520 requires that a Medicare claim for test strips and/or lancets include the KX
modifier for insulin-treated patients and the KS modifier for non-insulin-treated patients.

For 24 of the 100 sampled claims, DME suppliers submitted claims with incorrect modifiers.
For example, a claim from one supplier for test strips included the KS modifier rather than the
KX modifier when the physician order indicated that the beneficiary was being treated with
insulin. The physician’s medical records also supported that the beneficiary was being treated
with insulin.

INCORRECT UNIQUE IDENTIFICATION NUMBER

Section 1833(q)(1) of the Act requires that a Medicare claim include the unique identification
number for the referring physician.

For 13 of the 100 sampled claims, DME suppliers submitted claims with incorrect unique
identification numbers for referring physicians. For example, a claim from one supplier for
lancets included an incorrect unique identification number for the referring (i.e., ordering)
physician. The beneficiary obtained an order for lancets from a new physician and submitted the



                                                11
order to the DME supplier. However, the supplier claimed the lancets using the unique
identification number of the former physician contained in its billing system.




                                              12
APPENDIXES
                                                                                        Page 1 of 2


           APPENDIX A: FRAME SAMPLE DESIGN AND METHODOLOGY

OBJECTIVE

To accomplish our audit objective, we reviewed a sample of claims (error sample) to determine
whether Medicare documentation requirements had been met and to estimate the effect of
noncompliance. The error sample included Medicare Part B claims for home blood-glucose test
strip and lancet supplies (test strips and lancets) that CIGNA Government Services, LLC (CGS),
and Palmetto Government Benefits Administrator, LLC (Palmetto GBA), allowed for payment
with quantities that exceeded Medicare utilization guidelines based on our analysis of claims
(high utilization claims). To estimate the effect of noncompliance, it was necessary to determine
the total number of high utilization claims that CGS and Palmetto GBA allowed for payment.
However, because high utilization claims were not easily identifiable, we could not determine
the total number of high utilization claims without significant time and effort. Therefore, the
objective of reviewing this sample was to estimate the number of high utilization claims that
CGS and Palmetto GBA allowed for payment (frame sample).

POPULATION

The population consisted of high utilization claims. The population was limited to the Part B
claims included in the Centers for Medicare & Medicaid Services (CMS) National Claims
History file for calendar year (CY) 2007, updated as of December 2007.

SAMPLING FRAME

We extracted Medicare Part B claims for test strips and/or lancets (Healthcare Common
Procedure Coding System codes A4253 and A4259, respectively) with service dates ending in
CY 2007. We removed from the claims any service line in which the amount allowed for
payment was less than the lowest nationwide CY 2007 Medicare fee schedule amount ($32.74
for test strips and $10.83 for lancets). The result was a data file containing 4,361,179 claims for
test strips and/or lancets for 1,488,636 beneficiaries. This data file included claims with all
quantities of test strips and/or lancets.

To identify high utilization claims for test strips and/or lancets, we determined that an in-depth
analysis of each of the 4,361,179 claims in the data file was needed. However, because it was
not practical to analyze all of these claims, we used a random sample to estimate the total
number of and the amount allowed for payment for high utilization claims. The sampling frame
contained the 1,488,636 beneficiaries for whom the 4,361,179 test strip and/or lancet claims had
been submitted to CGS and Palmetto GBA.

To identify high utilization claims for the frame sample, we analyzed the information submitted
by durable medical equipment (DME) suppliers on the claim forms. We did not verify the
accuracy of the information. However, during our audit, we determined that some claims we had
identified as high utilization claims were in fact within the Medicare utilization guidelines based
on our review of the beneficiaries’ medical records and additional analysis of the claim
information. Because it was not practical to obtain and review the medical records for all
                                                                                         Page 2 of 2


beneficiaries with test strip and/or lancet claims, we considered a claim to be a high utilization
claim based solely on the claim information submitted by DME suppliers. Further, we did not
perform additional analysis of all claims. As a result, the sampling frame of high utilization
claims contained claims in which the quantity of test strips and/or lancets was within the
utilization guidelines.

SAMPLE DESIGN

We used a simple random sample.

SAMPLE UNIT

The sample unit was a beneficiary with one or more claims for test strips and/or lancets that CGS
and Palmetto GBA allowed for payment.

SAMPLE SIZE

The sample size was 500 beneficiaries.

SOURCE OF RANDOM NUMBERS

We used the Office of Inspector General, Office of Audit Services (OAS), statistical software to
generate a set of random numbers.

METHOD OF SELECTING SAMPLE UNITS

To select the sample units, we consecutively numbered the sample units in the frame from 1 to
1,488,636. After generating 500 random numbers, we selected the corresponding frame items.
No frame sample unit was replaced.

CHARACTERISTICS TO BE MEASURED

For each sample unit, we obtained all the beneficiary’s claims for test strips and/or lancets and
analyzed the claim information submitted by DME suppliers to determine the number of high
utilization claims.

ESTIMATION METHODOLOGY

We used the OAS statistical software to estimate the total number of high utilization claims that
CGS and Palmetto GBA allowed for payment, as well as the amount allowed for payment.
                   APPENDIX B: FRAME SAMPLE RESULTS AND ESTIMATES


                         Sample Results for Estimate of Total Number of Claims

   No. of
Beneficiaries
 With Test      No. of Claims
Strip/Lancet         for                                                    No. of Sampled
 Claims in      Beneficiaries      No. of         No. of Claims for        Beneficiaries That           No. of High
 Sampling       in Sampling     Beneficiaries         Sampled                   Had High          Utilization Claims for
   Frame           Frame         in Sample         Beneficiaries           Utilization Claims     Sampled Beneficiaries

1,488,636       4,361,179           500                   1,488                  188                      493


                      Sample Results for Estimate of Amount Allowed for Payment

     No. of
  Beneficiaries      Amount Allowed
   With Test         for Payment by                           Amount          No. of Sampled        Amount Allowed
  Strip/Lancet      CGS and Palmetto         No. of          Allowed for     Beneficiaries That    for High Utilization
   Claims in        GBA in Sampling       Beneficiaries      Payment in           Had High         Claims for Sampled
Sampling Frame            Frame            in Sample           Sample        Utilization Claims        Beneficiaries

   1,488,636         $497,281,558               500           $181,316              188                 $74,237


                                   Estimates for High Utilization Claims
                          (Limits Calculated for a 90-Percent Confidence Interval)


                                                                       Estimated
                                                   Estimated            Amount
                                                  Total No. of         Allowed for
                                                    Claims              Payment
                            Point estimate            1,467,795       $221,024,069
                            Lower limit               1,275,919        189,751,195
                            Upper limit               1,659,671        252,296,943
                                                                                                       Page 1 of 2


             APPENDIX C: ERROR SAMPLE DESIGN AND METHODOLOGY

POPULATION

The population consisted of Medicare Part B high utilization claims for test strips and/or lancets
that CGS and Palmetto GBA allowed for payment. The population was limited to the Part B
claims included in CMS’s National Claims History file for CY 2007, updated as of December
2007.

SAMPLING FRAME

The number of sample units in the sampling frame was unknown and was estimated by the
sample described in Appendixes A and B.

SAMPLE DESIGN

We used a simple random sample.

SAMPLE UNIT

The sample unit was a high utilization claim for test strips and/or lancets.

SAMPLE SIZE

The sample size was 100 high utilization claims for test strips and/or lancets.

SOURCE OF RANDOM NUMBERS

We used the OAS statistical software to generate the random numbers.

METHOD OF SELECTING SAMPLE UNITS

To select the sample units, we consecutively numbered the test strip and/or lancet claims in the
data file from 1 to 4,361,179. Using the random numbers in the order they were generated, we
matched each random number to the corresponding test strip and/or lancet claim. We analyzed
the claim corresponding to the first randomly generated number to determine whether the claim
was within the Medicare utilization guidelines. If the claim exceeded the guidelines, we
included it in the sample as a high utilization claim. If the claim did not exceed the guidelines,
we replaced it with the claim corresponding to the next randomly generated number and
analyzed the newly selected claim. We continued this process until we had identified 100 high
utilization claims. 1




1
 Of the 100 claims, 31 claims were within the utilization guidelines based on our review of the beneficiaries’
medical records and additional analysis of the claim information.
                                                                                    Page 2 of 2


ESTIMATION METHODOLOGY

Based on the results of this sample and the sample described in Appendixes A and B, we used
the OAS statistical software to estimate the (1) amount allowed for payment by CGS and
Palmetto GBA for claims that we identified as high utilization claims and were not supported in
accordance with Medicare documentation requirements and (2) amount that CGS and Palmetto
GBA paid to DME suppliers for claims that we identified as high utilization claims and were not
supported in accordance with Medicare documentation requirements.
               APPENDIX D: ERROR SAMPLE RESULTS AND ESTIMATES


       Sample Results for Amount That CGS and Palmetto GBA Allowed for Payment

                                          No. of                              Value of
                                       Claims With          Value of         Unallowable
                    Sample Size        Deficiencies         Sample            Amount
                         100                 79              $12,535            $8,483


     Sample Results for Amount That CGS and Palmetto GBA Paid to DME Suppliers

                                          No. of                              Value of
                                       Claims With          Value of         Unallowable
                    Sample Size        Deficiencies         Sample            Amount
                         100                76 1             $9,769             $6,557



                                Estimates of Unallowable Amounts
                      (Limits Calculated for a 90-Percent Confidence Interval)

                                            Amount CGS                Amount CGS
                                            and Palmetto              and Palmetto
                                           GBA Allowed for            GBA Paid to
                                              Payment                DME Suppliers
                      Point estimate        $125,018,182               $96,633,764
                      Lower limit             98,337,687                75,849,567
                      Upper limit            151,698,677               117,417,961




1
  Payments for 76 of the 79 claims with deficiencies were made to DME suppliers. The payment for one claim was
made to the Medicare beneficiary. For the remaining two claims, the payments were made to neither suppliers nor
the beneficiaries because the beneficiaries were required to pay deductibles.
                                                                                                        Page 1 of 4


                 APPENDIX E: AUDITEE COMMENTS 



Jean Jtu_< h
P,"sidcnl




September 16, 2010
                                                                             elGNA Government
                                                                             Services
                                                                             Two V ~ nt.se Way
                                                                             Na,hville, TN 37228
                                                                             Telephone 615_252_3657
Lori A. Ahlstrand                                                             ~.<slm Uc   61S.78Z.469's
                                                                             J ~an _R\lsh @C!GNA.C()m
Regional lnslx>ctor Ge neral for Audit Services
Office of Inspector General
Office of Audit Services, Region IX
90 - 7'h Street, Suite 3-650
San Francisco, CA 94103

Dear Ms. Ahlstrand,

Oil August 20, 2010, e lGNA Government Services (CGS) received Draft Report A-09-08­
00045: "Review o f Medkarc Claim s For Home Blood Glucose Test Strips and Lancets." CGS
has reviewed the report and acknowledges the facts presented in the report. CGS' response
to the recommendations noted in the report is included as requested. However, it should be
noted that th e report is missing re levant information which is critical to an understanding
of the recommendation s.

CGS requests that the OIG consider revising the report to account for the following relevant
information. The draft report does not include the fact that the Program Safeguard
Contractor (pSC) was responsi ble for medical review activities during the scope of the review
(CY2007). Allhough CGS did assume responsibility for claims processi ng in J urisdiction C
on June 1, 2007 as noted in the report, CGS was not responsible for medical review activities
until March 2008. This distinction is critical to note in th e report since 11 large percentage of
errors attributed to CGS an d/or Palmetto GBA were documentation errors that would be
determined only through complex OledicaJ rcvkw (which was handled by the PSC).

[n addition to the item noted above, CGS submits th e following comments in relation to the
items noted in the uOthcr Matters" secti on of the report:

      1, Other Mattu$ - Incorrect Modjfjer
     LCD Ll1520 requires that 11 Medicare claim for test strips and/or lancets include 

     t he KX modifier for insulin-treated palients and the KS modifier for non-insulin­

     treated patients. For 24 of the 100 sampled claims, DM E suppliers subm itted 

     claims with incorrCt;t modifiers. For example, a claim from one DM!! supplier for 

     test strips included t he KS modifier rather than the KX modifie r when t he 

     physician order indicated thai the beneficiary was being treated with insulin. 

     The documentation in the treating physician's medical records also wpported 

     that the beneficiary was being treated with imulin. 





                                                                                 CA#S/
                                                                                                            Page 2 of 4



September 16, 20}O
Page 2 of 4


   CGS Response
   During CY2007, CGS did not have complex medica! rev iew. Therefore, t he only editing
   CGS could have imp1cm.:ntl.-tl to detect these types of billing errors, was automated
   claim denials. Current LCD language does nol allow for automated editing. According to
   Internet-Only Manual 100-8, Chapter 3, Sections 3.4.1.1 and 3.5.1, automated review
   must have clear policy that serves a$ the basis for denial. In addition, Chapter 13, Section
   13.5.3 instructs contr<lctors, when developing l e Ds, to avoid the use or absolute te rms
   and instead "tise plrrases such as 'rarely /IIedically lIcctssary' or 'no/usually medically
   necessary' ill proposed LCDs to describe sitl/atioll$ where a service ;s cOllsidered 10 be, ill almost
   all illstarlees, 1101 rcasolluble «ml mxessllry. n

   The curren t LCD attempts to balance limits on utilization while still allowing for clinical
   Circumstances when additional supplies aTe necessary. This is accomplished through
   coverage criteria stating that additional supplies may be proVided if the treating
   physician documents that th e supplies are reasonab le and n(.'t.-"Cssary. The lack of
   absolu te language stating a service is "never medically necessary" or will "always he
   denied" p revents editing to automatically deny cla ims. Consequently, claims wit h
   amounts of testing supplies excccding the guidelines in t he LCD must be manually
   reviewed. As previously stated, CGS did not have the authority to perform complex
   medical review during the timeframe induded in the scope of this review. The pse was
   responsible for the medical review function in CY2007. CGS did not assum e
   responsibility for 1\.·fedical Review until March 2008.


 CGS does concur with the recommendations in the report. eGS has or will take the
following actions in response to the recomme ndations:

   l. Recommendation: Implement system edits to identify high utilization claims for
   Test strips and/or lancets and work with eMS to develop cost-effective ways of
   deTermining which claims should be further reviewed for compliance with Medicare
   documentation requirements.

   CGS Response
   eGS assumed responsibility for the Med ical ReView (MR) function in March 2008. Since
   then, manual edits have been implemented to identify over-utilization claims which
   require further development and complex medical review. Glucose testing supplies are a
   high priority itelll in CGS's Medical Review strategy as well as other operational areas
   (I.e., Claims, Provider Outreach and Education). The DM£ MAC Medical Directors are
   examining the Local Coverage Det ermi nat ion (LCD) for b lood. glucose lIIouitor5 and
   supplies to determine if ~dditional safeguards, such as incorporation of absolu te
   language can be implemented. This will help preven t inappropriate payments and
   accommodate additional automated editing of claims for testing supplies (S€e response
   number three below for related information).
                                                                                                   Page 3 of 4




September 16, 2010
Page 3 of 4



   2. Recommendation: Implement system edits to identify claims for test strips and/or
   lancets that have overlapping service dates for the same ben eficiary

   CGS Response
   Addition al edits have been implemented to identify and deny claims from multi ple
   suppliers with overlapping dales of service for the same beneficiary.

   3. R«ornmendatioo: Enforcc Medicare documentation requirements for claims for
   test strips and/or lancets by:
            I. 	 identifying DME suppliers with a high volume of high utilization claims
            2. 	 performing prepayment reviews of those DME suppliers, and
            3. 	 referring them to the Office of Inspector General or eMS for further review or
                 investigalion when necessary.

   CGS Response
   1. 	 As noted in CGS' response to Recommendation 1, CGS has implemented system
        edits for over-utilization. The DME MAC Medical Directors are examining the LCD
        to determine if additional safeguards can be implemented to prevent inappropriate
        payments.
   2. CGS Medical Review (MR), through data analysis, h as conducted (and continues to
        conduct) prepayment review of suppliers with high u tilization o f diabetic testing
        supplies.
   3. 	 CGS MR has a process in place [or referring suppllers of diabetic testing su pplies to
        the Hecovcry Audit Contractors (RAC) and Zoned Program In tegri ty Contractors
        (ZPIC). This is consistent with guidance outlined in the Internet Only Manual
        (10M), wh ich places the reJiponsibility for making referrals to t he OlG on the PSCs
        and ZPICs, not the OM!:: MAC Contractor. Per the 10M, publication 100-08, chapter
        4, section 4.2.2:
                 "TIle PSC and the ZPfC Bf unit is respoTiSible for preventing, detecting, and
              deterring Medicare (raud. The PSC and the ZPIC BI unit: Refers cases to the Office of
              the Inspector General/Office ofInvestigations (OIG/OI) (OT consideration o( civil and
              criminal prosecution alld/or application ofadministrative sanctions."


    In addition, CGS has made the following efforts to encourage policy compliance within
    the provider community:

       • 	 In August 2008, CGS MR issued a "Dear Physician" letter to the top 1,500
           o rdering physicians of diabetic testing supplies in Ju risdiction c. In this letter,
           Dr. Robert Hoover,Jurisdiction C Medical Director, outlined Medicare
           requirements for b lood glucose testing as well as required physician
           documentation requirements.
                                                                                               Page 4 of 4




September 16, 2010
Page4of4


       • 	 CGS released a ~Documen tation Checklist" on the Jurisdiction C website for the
           Gl ucose Monitors and Supplies policy in June 2008. This checklist can be used as
           a tool for su ppliers to ensu re they are following requirements related to the
           d iabetic supplies policy.
       • 	 CGS's Pwvider Outreach and Education department (POE) has conducted
           extensive provider and supplier education with regard to p rope r coding,
           coverage, and documentat ion requirements for home blood glucose monitors
           and supplies. These efforts include multi ple bulletin articles, workshops, state and
           trade association meetings, webinars, documentation checklists and a segment in
           CGS' onlin e video education series, Medicare Minute. CGS POE has also
           developed a KX Modifier Chart that provides spedfic education and instruction
           on how the KX modifier should be appe nded based on the type of item or service
           bein g provided and billed in reference to diabetic supplies.

If you have any questions or additional requests related to this review, please contact
Elizabeth Noelting, Compliance Speciali5t at 615-782-4541 .


Sincerely,




Jean Rush
President
CIGNA Government Services
